WAIVER

Supreme Court of the United States

No. 19-961
Khashon Haselrig v. Stephanie Inslee
(Petitioner) (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:

& Please enter my appearance as Counsel

 

QO There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

& Iam a member of the Bar of the Supreme Court of the United States.

OG Lam not presently a member of the Bar of this Court. Should a response be requested,
the response will be filed by a Bar member.

Signature Kee whe i. Bo SauS

2/28/2020

 

Date:

 

(Type or print) Name__Douglas R. Shepherd
sO Mr, OMs. O Mrs. O Miss

Firm__ Shepherd and Allen

Address _2011 Young Street, Suite 202

Bellingham, WA Zi 98225

City & State. Ap

Phone _ 360-733-3773

SEND A COPY OF THIS FORM TO PETITIONER’S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Khashon Haselrig, Petitioner Pro Se
809 NW 153 Terrace
Edmond, OK 73013
